>

No.

-165

Supreme Court of the United
States
JOE BLESSETT, PETITIONER
v.
TEXAS OFFICE OF THE ATTORNEY GENERAL
GALVESTON COUNTY CHILD SUPPORT
ENFORCEMENT DIVISION,
CITY OF GALVESTON, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

JOE BLESSETT / Pro Se
3118 FM 528

#346

WEBSTER, TEXAS 77598
Tel.: 281-667-1174
E-mail: joe@joebelessett.com

QUESTION PRESENTED
1. Did U.S. Congress intend for Title IV-D
Cooperative-Federalism 42 U.S.C 654(3) contactors
escape private law liabilities for violating their 10th
amendment protections under their contract with
the U.S. government?
2. Did the Respondent forfeit its 11th amendment
privilege by in failure to clearly make its intentions
known upon a direct challenged by the PetitionerAppellant ("Blessett") in the trial court in 2017 and
failure to protect its 11th amendment privilege
before a judicial determination on March 6, 2019, in
the 5th Circuit Court by its legal conduct?
3. Does the Texas Title IV-D program violate the
"Separation of Powers" with state employees acting
as contracted federal agents for the program and
Texas state actors cloaked in state sovereignty at
the same time?
4. Is it an overreach of "Public Law into Private
Law Domain" by Title IV-D of the Social Security
Act?
5. Does the Title IV-D program provide any
benefits to the noncustodial parent?
6. Who is the primary lender on the interstate
contracts in question under federal law?
7. Blessett challenges U.S. Constitutionality of
the 42 U.S.C.658a incentives for performance as
monetary inducement to coerce the 42 U.S.C.
654(3) contractors to increase performance
revenues like any income-generating business and
criminalize noncustodial parents?
8. Does federal statute 42 U.S.C. 658a of the Title
IV-D of Social Security Act of the program help

create an implicit derogatory bias against child
debtor with financial inducement to the state
agencies?
9. Can Blessett be defaulted into a Title IV-D
contract without due process, without knowledge of
the contract, and receiving benefits from the
contract?
10. Was Blessett entitled to a copy of a valid legal
instrument under 42 U.S.C. 654(12) as proof of
Title IV-D interstate contractual obligation as a
public law protections for his civil rights as a
private individual?
11. Does the Petitioner demand for monetary
relief for his injuries caused by 10th amendment
protections violations disturb the Respondent's 11th
amendment protections under contract law?
12. Does the Petitioners Final Divorce Decree
support order as an interstate contract enjoy
commerce clause and contact clause protections
under Title IV-D enforcement as an equitable
instrument?
13. Can the individual Title IV-D agencies as
income-generating agencies escape private law
liabilities for noncompliance with the federal
statutes of their federal program contract?
14. What Public Law prevents the use of the
Clearfield Trust Law Doctrine against paid
contracted U.S. Government contracted agencies
for noncompliance with their contracts and
infringement on Blessett's private contracts?
15.Was Joe Blessett entitled to 'Commerce
Clause" protections, and "Contract Clause"
protections to prevent the injuries caused by the
Title IV-D agency?

16. Can the Title IV-D agency be in of
noncompliance with Title IV-D of the Social
Security Act and still preserve Federal Statutes,
the U.S. Constitution, and 10th amendment
protection from suit?
17. Did U.S. Congress intend for Texas Office of
Attorney General Title IV-D child support agency
violate the "Separation of Powers" by acting as
contracted federal agents cloaked in state sovereign
authority?
18.Did U.S. Congress intend for Title IV-D as
income-generating agencies escape private law
liabilities for injuries inflicted on private
individuals under contract law?
19.Did U.S. Congress intend for the Texas 42
U.S.C 654(3) contactor and the Texas Department
of Public Safety be held liable for the Drivers
Privacy Protection Rights Act for the impermissible
burden on the petitioner's driver's license under the
color of law?

i\/

PARTIES TO THE PROCEEDING

Petitioner : Joe Blessett.
Respondents: Texas Office of the Attorney
General Galveston County Child Support
Enforcement Division
Counsel of Record for Respondent
Francesca A. Di Troia
Assistant Atty Gen of TX
P.O. Box 12548,
Austin, TX 78711-2548
PH. (512) 475-4651
Francesca.DiTroia@oag.texas.gov
LEAD ATTORNEY
Corporate Disclosure Statement
1. U.S. Department of Health and Human
Services (’H.H.S."). U.S. Government contactor
with the individual state entities under
Cooperative Federalism contracts to fulfill the
contracted obligations of Title IV of the Social
Security Act.
Address:
U.S. Department of Health and Human Services
Office of Inspector General
P.O. Box 23489
Washington, DC 2002
2. Texas Office of Attorney General Child
Support Enforcement Division (“OAG”) is the 42

\/

U.S.C. 654 (3) contracted service provider for
H.H.S.
Address:
Mr. Barry McBee
First Assistant Attorney General
for the State of Texas
P.O. Box 12548
Austin, TX 78711

3. Texas Office of Attorney General Galveston
County Child Support Enforcement Division, the
45 C.F.R. 302.34 contracted service provider for
City of Galveston.
Address:
Galveston County Legal Department
City of Galveston
722 Moody, 5th Floor
Galveston, TX 77550
(409) 770-5562
4. The City of Galveston (located in Galveston
County, Texas) the contracted municipality that
provides the 45 C.F.R. 302.34 contracted entity to
fulfill the services for OAG the 42 U.S.C. 654 (3)
contractor.
Address:
Galveston County Legal Department
City of Galveston
722 Moody, 5th Floor
Galveston, TX 77550
(409) 770-5562

\/i

5. La Marque Child Support & Social Service
Office (located in Galveston County Texas), a 45
C.F.R. 302.34 contracted service provider for OAG
the 42 U.S.C. 654 (3) contractor.
Address:
La Marque Child Support & Social Service Office
5300 FM 2004
La Marque, TX 77568-2402

6. Representing the United States interest as per
28 U.S.C. 2403(a).
Ms. Charlene Goodwin
Legal Administrative
Officer Office of the Solicitor General,
Rm. 5614 United States Department of Justice
950 Pennsylvania Ave.,
NW Washington, DC 20530-0001
"Since every government is an artificial person,
an abstraction, and a creature of the mind only, a
government can interface only with other artificial
persons. The imaginary, having neither actuality
nor substance, is foreclosed from creating and
attaining parity with the tangible. The legal
manifestation of this is that no government, as well
as any law, agency, aspect, court, etc. can concern
itself with anything other than corporate, artificial
persons and the contracts between them." U.S. v
Minker, 350 US 179 at 187(1956) JOSEPH
CRAIG
BLESSETT, Joe Blessett's artificial
person has not entered into a Title IV-D financial
obligation contract with any of the corporate and
artificial parties listed above.

\/ii

TABLE OF CONTENTS
11
Question Presented............................
.v
Parties to the proceedings.............
,v
Corporate Disclosure........................
Vlll
Table of Content..................................
IX
Table of Authorities..........................
1
Citations of Opinions.......................
1
Jurisdiction.........................................
2
Statutory provisions involved......
3
Statement..............................................
4
Reasons for granting the petition
A. Title IV-D contracted services are nationwide
federal collection and enforcement agencies of
interstate contracts established under "
Cooperative Federalism" that are essentially
7
individual Federal-State Compacts
B. Under Cooperative Federalism, all Title IV-D
agencies generate income from federal
government contract reimbursement for
services rendered and financial incentives for
13
performance
C. It was a fatal error of law in forfeiting
Blessett's good-faith gesture with a legal
instrument to expedite the issues and bring
the matter to a close while preserving the
20
State's 11th amendment immunity
D. By placing an impermissible financial burden
on Blessett Driver's license without due
process the Texas Department of Public Safety
and the OAG violated the Driver's Privacy
Protection Act of 1994 DPPA
23
E. Individual citizens are not required to act in
the public interest. Private law gives them the
24
legal tools to act in their own interest

Vlll

F. Title
IV-D
Incentives
for
collection
performance are inducements and cash
bounties on noncustodial parents under
26
administrative law
G. Blessett challenges the constitutionality of 42
U.S.C § 658a of the Title IV-D of the Social
Security Act as an administrative law cash
29
bounty on child support debtors
33
Conclusion...........................................
APPENDIX
Appendix A — Court of Appeals Opinion
1
(March 6, 2019).............
Appendix B — District Court Order (August 27,
4
2019)................................................................
Appendix C — Order denying FRCP59(e)
(January 27, 2020).........
13

TABLE OF AUTHORITIES
Cases:
............................15,22,38
5th Amendment..
...........................22,37,38
9th Amendment..
5, 7, 14, 20, 22, 35, 36, 38
10th Amendment
...3, 4, 5, 10, 11, 13, 14,
11th Amendment
16, 20, 35, 38
14th Amendment immunities and privilege
15, 17, 22, 24, 28,
clause
36, 37, 38
Adickes v. S.H. Kress & Co.,
398 U.S. 144, 174 n. 44, 90 S.Ct. 1598, 1617 n. 44,
13
26 L.Ed.2d 142(1970)
Bell v. Hood,
327 U.S, Bivens v. Six Unknown Named Agents
IX

of Federal Bureau of
Narcotics
403 U.S. 388(1971)............................................... 38
Bell v. New Jersey,
461 U.S. 773, 790-91(1983)............................... 7,8
Child Support Performance and Incentive Act,
28
Pub. L. No. 105-200, 112 Stat. 645.......
8, 16, 18
Clearfield Trust Law Doctrine.................
Contract Clause Article I,
section 10, clause 1................................ .... 15,38
Cooperative Federalism............................. 7, 13, 14
Demshki v. Monteith,
11
255 F. 3d 986, 989 (9th Cir.2001)..........
23, 36
Driver's Privacy Protection Act of 1994..
Edelman v. Jordan,
20
415 U.S. 651, 664-67(1974)...................
20
Ex parte Young............................................
Fuentes v. Shevin,
11
407 US 67 - Supreme Court 1972.........
Full Faith and Credit for Child Support
2,5, 7
Orders Act................................................
Fullilove v. Klutznick,
28
448 U.S. 448, 474 (1980)........................
Hettinga v. United States,
15
677F.3d 471, 481-83 (D.C.Cir.2012)....
Hill v. Blind Indus. & Servs. of Md.,
179 F. 3d 754, 761 (9th Cir.1999), amended by 201
12
F.3d 1186 (9th Cir.2000)......................
Johnson v. Orr,
22
780 F.2d 386, 390-93 (3d Cir.1986)
Kent v. Dulles
24
357 U.S. 116(1958)............................
Kletschka v. Driver,
21
411 F.2d 436, 448-49 (2d Cir.1969).
Lapides v. Board of Regents of Univ. System of Ga
12
535 US 613 (2002).
Lochner v. New York,
198 U.S. 45, 25 S.Ct. 539, 49 L.Ed. 937
X

15
(1905)
Lincoln Fed. Labor Union v. Northwestern Iron &
Metal Co.,
335 U.S. 525, 536, 69 S.Ct. 251, 93 L.Ed. 212
15
(1949).....................................
15
Marbury v. Madison...........
New York v. United States,
26
505 U.S. 144, 167(1992)...................
Office of Atty. Gen. of Texas v. Scholer,
Tex: Supreme Court
403 SW 3d 859
6
2013,
Office of the Atty. Gen. of Texas,
Tex: Supreme Court
456 SW 3d 153
7
2015................................
Owen v. Independence,
22
445 US 622 - Supreme Court 1980
Personal Responsibility and Work Opportunity
Reconciliation Act of 1996..................... 2, 7, 14, 19
Reno v. Condon,
23
528 US 141(2000)................................
Richardson v. Dep't of Interior,
21
740 F.Supp. 15, 19-20 (D.D.C. 1990)
Rodriguez-Gutierrez v. I.N.S.,
59 F.3d 504, 509 (5th Cir. 1995)....
18
Rosado v. Wyman,
397 U.S. 397, 420, 90 S.Ct. 1207,1222, 25L.Ed.2d
................. 8,18
442(1970).............................
4, 9, 19, 21, 27
Separation of Power.........
South Dakota v. Dole,
................. 28,29
483 U.S. 203, 206(1987)
8, 14, 26, 28, 37
Spending Clause.................
4, 9, 19
Supremacy Clause Article of VI Sec. 2
Stop the Beach Renourishment, Inc. u. Florida Dep't
of Envtl. Prot.,
560 U.S. 702, 721, 130 S.Ct. 2592, 177 L.Ed.2d
184 (2010)............................................................... 15
Texas Dept, of Community Affairs v. Burdine,
12
450 US 248 - Supreme Court 1981................
XI

9, 14, 17
Title IV-A of the Social Security Act
Title IV-D of the Social Security Act...5, 10, 14, 17,
28, 31
Tongol v. Usery,
12, 22
601 F.2d 1091, 1097(9th Cir.1979)
Townsend v. Carmel,
21
494 F.Supp. 30, 32 (D.D.C.1979)....
4,
11,
13,
28,
27,
U.S. Constitution
30, 32, 38
Uniform Interstate Family Support Act...2, 7, 14, 19
United States v. Classic,
20
313 U. S. 299, 326 (1941).............
United States u. Fernandez,
21
797F.3d 315, 318 (5th Cir. 2015)
Washington v. Glucksberg,
37
521 U. S. 702, 721(1997).............
Williams v. U.S.,
396 F. 3d 412 - Court of Appeals, Dist. of
12
Columbia Circuit 2005
STATUTES

18 U.S. Code §2721 (a)(2)..
18 U.S. Code § 2721(b) (11)
18U.S.C. 2723 (b)...........
28 U.S.C. 1738B..............
28 U.S.C. 2403................
42 U.S.C. 1983................
42 U.S.C. 1986................
42 U.S.C. 603 (5)(c)(iii)(III)
42 U.S.C. 604....
42 U.S.C. § 654...
37, 38
42 U.S.C. 654(3)..
42 U.S.C. 654(12)

23
23
24
4, 5, 19, 38
1
7, 8, 17, 18, 20-22
22
8, 10, 17, 25
9

5, 6, 8, 14, 15, 18, 20 32, 35,
............................ 7,18,23
5, 14, 1617, 23, 26, 30, 36
XII

.................................. 9, 14
42 U.S.C 654(32) ..
........ 13,28, 29, 30, 33, 35
42. U.S.C. 658a.....
.................................. 9, 14
42 U.S.C. 659a(d)..
5, 7, 22, 29, 31, 33, 34, 36
45 CFR 302.34.......
28
45 CFR § 305.40.....
29, 34
45 CFR § 305.61....
6
45C.F.R. §§307.11
6
45 C.F.R. §§ 307.ll(e)(2)(i)-(ii).......................
45 C.F.R. §§ 307.11(e)(3)................................. 6, 7
16
FRCP 9(d)........................................................
30
FRCP 65...........................................................
TEX. F.A.M.CODE §§ 102.007.......................
5
5
TEX. F.A.M.CODE §§231.001, .101(a)(5)-(6)
5
TEX. FAM.CODE §§ 231.001, .002, .101.......
6
TEX. F.A.M.CODE § 231.104(b).....................
TEX. FAM.CODE § 232.0022.......................
36

XIII

OPINIONS BELOW
The opinion of the Courts;
1. Blessett v Texas Office of Attorney
General Galveston County Child Support
U.S. 5th Cir.
Enforcement Division
Court (2019) No. 18-40142
2. Blessett v Texas Office of Attorney
General Galveston County Child Support
Enforcement Division, Dist. Court, SD
Texas (2019) No. 3:17-CV-00164
3. Order Denying Federal Rule of Civil
Procedure 59(e). Dist. Court, SD Texas
(2020) No. 3:17-CV-00164.
JURISDICTION
The judgment of the Dist. Court, SD, Texas, was
entered on August 27, 2019. A petition for Federal
Rule of Civil Procedure 59(e)rehearing was denied
on January 27, 2020. Texas Galveston County
Family Court #2 June 13, 2015. This Court
jurisdiction on 28 U.S.C. 1254(1), 28 U.S.C. 2403
presentation of the facts and law relating to the
questions of constitutionality, and 28 U.S.C.
2101(e) to review a case before judgment has been
rendered in the court of appeals.

1

STATUTORY PROVISIONS INVOLVED
1.
2.
3.
4.

Cooperative Federalism.
Separation of Powers Clause
Supremacy Clause
Private Individual protections in the
Commerce Clause.
5. Pertinent provisions of Part D of the Social
Security Act, Part A of the Social Security
Act, Driver Privacy Protection Act 1994,
6. Full Faith and Credit for Child Support
Orders Act (FFCCSOA)
7. Uniform
Interstate
Family
Support
Act(UIFSA)
8. Personal
Responsibility
and
Work
Opportunity Reconciliation Act of 1996
(PRWORA)
9. Child Support Performance and Incentive
Act
10. Driver Privacy Protection Act (DPPA)

Petitioner, Joe Blessett ("Blessett"),
Respondent, Texas Office of Attorney General
Galveston County Child Support Enforcement
Division ("Title IV-D agency") is the City of
Galveston (Galveston County), the municipality
and subcontractor La Marque Child Support and
Social Services.

2

STATEMENT
The Court's opinion was unreasonable, given the
evidence presented, the application for injunctive
Declaratory Judgment. Blessett
relief for
challenged the Respondent's failure to clearly
indicate it would use the 11th amendment immunity
privilege as a defense after a direct challenge to its
right to immunity and before a judicial
determination on March 6, 2019, in the U.S. 5th
Circuit Court.
Blessett challenges the Respondent's policies
and customs that sanction the breaking of the law
and exposing the customs and policies within the
Texas Title IV-D program through its legal
arguments. If U.S. Congress and the state
government cannot enact any law that denies the
civil right to the individual, "Blessett cannot be
bound to a contract that he has not made or
authorized. Free consent is an indispensable
element in making valid contracts." Blessett may
stand upon "his Constitutional Rights" as a private
individual. He is entitled to carry on his "private"
business in his own way. "His power to contract is
unlimited." He owes no duty to the State or his
neighbors to divulge his business or to open his
doors to an investigation, so far as it may tend to
incriminate him. He owes no duty to the State since
he receives nothing from there, beyond the
protection of his life and property. "His rights" are
such as "existed" by the Law of the Land (Common
Law) "long antecedent" to the organization of the
State," and can only be taken from him by "due
process of law," and "under the Constitution." "He
3

owes nothing" to the public so long as he does not
trespass upon their rights."
Blessett challenges the Texas Title IV-D agency
operations conflict with the Supremacy Clause and
Separation of Power under a CooperativeFederalism contract. As contractors to the U.S.
Government, the state employees cloaked in state
sovereignty cannot act as a federal agent to fulfill
the obligations of a federal contract.

REASON FOR GRANTING THE PETITION
Blessett's Final Divorce Decree signed on July
23, 1999, is a state court judgment with full faith
and credit in all jurisdictions as per § 1738B and is
the controlling instrument for Cause #98FD0817.
Appellee does not possess and has not been able to
present any other controlling legal document;
therefore, the Title IV-D agency and its contractors
were outside their legitimate roles in presenting
issues and securing enforcement collection actions
towards Blessett in this civil action. The Title IV-D
Agency took their chances and used 11th
Amendment immunity as their defense to suppress
the answers to the U.S. Constitution questions.
Had Blessett been allowed to proceed, it would
show the floodgates of fraud are open in the name
of "child support." Hence, the Appellee's 11th
Amendment Immunity as their defense and the

4

denial of Blessett's 11th amendment right from
illegal government infringement.
Blessett requested his Final Divorce Decree to be
given full faith and credit under the Congressenacted ("FFCCSOA") 28 U.S.C. 1738B. The Texas
Office of Attorney General Galveston County Child,
Support Enforcement Division, is a 45 CFR 302.34
contractor that is required under contract provision
42 U.S.C. 654 (12) to provide Blessett with a copy of
a modification of his Final Divorce Decree support
order, upon challenge. The Title IV-D agency has
breached its contractual agreement for the 10th
amendment protections of a U.S. Congressional Act
under 42 U.S.C. 654 of Title IV-D of the Social
Security Act. The federal contract does not impose
mandatory administrative enforcement of its
services or state acceptance to the terms of a service
contract without the agreed consent to contractual
participation in the program.
The Office of the Attorney General Texas Child
Support Division's ("OAG") is the designated Title
IV-D agency in Texas and has the power to enforce
child support orders and collect and distribute
support payments. TEX. FAM.CODE §§ 231.001,
.101(a)(5)-(6). Among its powers is the ability to
seek a court order to withhold income from a child
support obligor's disposable earnings. TEX.
FAM.CODE §§ 102.007 (authorizing Title IV-D
agencies to file suits for modification or motions to
enforce child support orders), 158.006 (a court or a
Title IV-D agency "shall order that income be
withheld from [obligor's] disposable earnings"); see
also id. §§ 231.001, .002, .101 (describing the
5

powers, services, and duties of a Title IV-D agency,
including enforcement, collection, and distribution
of child support payments). Office of Attv. Gen, of
Texas v. Scholer. 403 SIV 3d 859 - Tex: Supreme
Court 2013 The OAG never followed the judicial
"Procedural Law
Process" against Blessett and, therefore, unable
to produce a valid judicial order. TEX. FAM.CODE
§ 231.104(b) ("An application for child support
services is an assignment of support rights to enable
the Title IV-D agency to establish and enforce child
support and medical support obligations....").
Office of Attv. Gen, of Texas v. Scholer The right
to establish Title IV-D services is not an established
right to enforce Title IV-D child support.
Texas must follow the federal guidelines, which
are located in Part D of Title IV of the federal Social
Security Act. 42 U.S.C. § 654 et seq. Under the
program's guidelines, Texas "at a minimum " must
establish a state registry consisting of "fejvery TV-D
case receiving child support enforcement services
under an approved State plan; and ... fejvery
support order established or modified in the State
on or after October 1, 1998." 45 C.F.R. §§ 307.11;
307.1 l(e)(2)(i)-(ii). The state case registry also must
contain certain "Standardized data elements" for
every program participant. Id. § 307.11(e)(3). These
standardized elements "shall include . . .Names . . .
Social security numbers . . . Dates of birth . . . Case
Other
uniform
identification
numbers
identification numbers ... fand] Data elements
required under paragraph (f)(1) of this section
necessary for the operation of the Federal case
6

registry. "Id. § 307.1 l(e)(3)(i)-(vi) (emphasis added).
Office of the Attv. Gen, of Texas. 456 SW 3d 153
- Tex: Supreme Court 2015
A. Title IV-D contracted services are nationwide
federal collection and enforcement agencies of
interstate contracts established under "Cooperative
Federalism" that are essentially individual
Federal-State Compacts. U.S. Congress enacted
PRWORA and UIFSA as contractual legal
instruments to remove the Title IV-D 42 U.S.C.
654(3) contractor's sovereignty and jurisdiction
restrictions between states. Blessett has filed this
case at the District Court against the Texas Office
of Attorney General Galveston County Child
Support Enforcement Division, a 45 CFR 302.34
contracted services provider for Texas OAG, a Title
IV-D United States 42 U.S.C. 654(3) contractor
Under FFCCSOA, PRWORA and UIFSA
contractually agreed on terms,
and the
Congressional Acts become the physical presence
for jurisdiction, and 10th amendment protection is a
contractual waiver of sovereignty to conduct
interstate commercial business to meet the
obligations of the United States government
contract. Bell v. New Jersey. 461 U.S. 773. 79091(1983) ("The Requiring States to honor the
obligations voluntarily assumed as a condition of
federal funding before recognizing their ownership
of funds simply does not intrude on their
sovereignty. The State chose to participate in the
Title I program and, as a condition of receiving the
grant, freely gave its assurances that it would abide
by the conditions of Title I.... [T]he State failed to
7

fulfill those assurances. It therefore became liable
for the funds misused, as the grant specified.").
Without the United States intervention, the states
are restricted by personam jurisdiction and
sovereign rights of sister states. Therefore, they
would only be state child support programs, and not
federal, which would then fail to meet the
obligation of a nationwide United States contract
legally.
The 45 CFR 302.24 contractors are paid for their
services, to meet the obligations of the enforcement,
collections, and distribution of commercial paper
payment transactions under 42 U.S.C. 654
contractual agreed terms. A breach of contractual
terms is a misuse of funds for the contracted service
payments of the United States contract. In this
case, the Title IV-D agency failed to fulfill the
voluntarily contractual obligations of 42 U.S.C.
654(12) and 42 U.S. Code § 603(a)(5)(C)(iii)(III), of
their contract, therefore are liable for the damages
against Blessett without Blessett intruding on the
contractor's sovereignty. Quotins Bell v. New
Jersey. The participating states are subject to
spending clause penalties and the public law
liabilities and remedies for protected private
individual rights. The Supreme Court repeatedly
has held that administrative enforcement schemes
must be presumed to parallel the private § 1983
enforcement remedy, rather than to "occupy the
same ground" as the State contends. Rosado v.
Wyman. 397 U.S. 397. 420. 90 S.Ct. 1207. 1222.
25 L.Ed.2d 442 (1970)

8

The U.S. Supreme Court has consistently held
that federal law governs questions involving the
rights of the United States arising under
nationwide federal programs.
Title IV-A and IV-D of The Social Security Act
unquestionably perform business functions within
the meaning of the Clearfield Trust Law
Doctrine. Since the agencies derive their authority
to effectuate loan transactions for 42 U.S.C. 604
"qualified first-time homebuyer, "postsecondary
educational expenses paid "business capitalization,
and under 42 U.S.C 654 (32) of the Title IV-D
provide services for "foreign reciprocating country,
a foreign treaty country, or a foreign country"
described in 42 U.S.C. 659a(d) for "International
support enforcement" are contractual specific Acts
of Congress passed in the exercise of a
"constitutional function or power." Under Title IVD, the state rights are derived from a federal
contract with the U.S. Government activities that
arise from and rely heavily upon federal contract
protections from liability, the Constitution, and
Acts of Congress to conduct a commercial business.
Clearfield Trust Co. v. United States
Blessett's Final Divorce Decree is a legal
instrument ratified in the State Judicial Branch.
The Title IV-D agency is under the Texas executive
branch, and its contractors, which include the
Texas Galveston County Family Court No. 2 as an
administrator,
used
administrative
have
enforcement action under the color of law. It is a
Separation of Powers and Supremacy Clause
Article of VI Sec. 2 issues without Blessett's consent
9

to Title IV-D services. Blessett's "Final Divorce
Decree" establishes paternity with a private
contractual agreement for support and with a
contract clause under a judicial order. The Final
Divorce Decree is material evidence with
protections under "Private Law," which the Title
IV-D agency has not refuted with any affirmative
evidence. The Final Divorce Decree, which contains
a state court support order, is dated July 23, 1999.
The 42 U.S. Code § 603(a)(5)(C)(iii)(III) begins
on or after, November 29,1999. The Final divorce is
a judicial support order, that occurs before the 42
U.S. Code § 603(a)(5)(C)(iii)(III) federal statute
on November 29, 1999, therefore, it would need a
Texas state court judicial modification under the
Title IV-D of the Social Security Act.
The District Court made a Fatal Error of Law in
giving an unfair advantage to the Title IV-D
agency, 11th Amendment Immunity, after a Judicial
Determination in the U.S. 5th Appellate Court had
already been decided on the merits and Blessett's
request for injunctive relief.
Blessett challenged the Title IV-D agency's 11th
Amendment Immunity in the Original Complaint,
and the Respondent failed to raise their 11th
Amendment Immunity privilege as an affirmative
defense in the District Court at the required time.
The Respondent's failure to raise their 11th
Amendment Immunity at the required time is a
judicial fact of record. Their affirmative defense
now, and objection after a judicial determination
had already been made, shows that the District

10

Court overruled the U.S. 5th Circuit Courts prior
ruling by dismissing Blessett's complaint now.
Blessett challenged the District Court's decision
in the U.S. 5th Appellate Court on the merits of his
claims, and these were all unopposed by the
Respondent. The Respondent was given ample and
reasonable opportunity for the "Procedural Law
Process" to afford them due process, and they did
not defend their 11th Amendment Immunity
privilege at the required time before the Judicial
Determination and the remand back to the U.S.
District Court.
The state agency was involuntarily brought into
the federal District Court on May 19, 2017, and
voluntarily decided not to protect its "U.S.
Constitutional Privileges" in the U.S. 5th appellate
court before a judicial determination on March 6,
2019. The requirement of a prior hearing is to
prevent unfair and mistaken deprivations of
property; however, it is axiomatic that the hearing
must provide a real test. Fuentes v. Shevin. 407
US 67 - Supreme Court 1972 The Title IV-D
agency had a hearing and the opportunity to defend
its rights.
The District Court made an error of law by not
requiring the Title IV-D agency to answer the U.S.
Constitution questions, once Blessett challenged
this right before and after a judicial determination
made in the U.S. 5th Circuit Court. "Eleventh
Amendment immunity is an affirmative defense
that must be raised 'early in the proceedings' to
11

provide 'fair warning' to the plaintiff." Demshki v.
Monteith. 255 F.3d 986. 989 (9th Cir.2001)
(quoting Hill v. Blind Indus. & Servs. of Md..
179 F.3d 754. 761 (9th Cir.1999). amended by
201 F.3d 1186 (9th Cir.2000)) The District Court
gave the Appellee an unfair advantage over
Blessett that is inconsistent with judicial conduct
in legal proceedings. Quoting Lanides v. Board
of Regents of Univ. System of Ga.. 535 US 613
(2002)
The District Court ignored an ultimate fact of
law that a judicial determination had already been
made in this civil action. By law, it legally binds the
Title IV-D agency to Federal Jurisdiction through
affirmative conduct. "Express waiver is not
required; a state 'waivefs] its Eleventh Amendment
immunity by conduct that is incompatible with an
intent to preserve that immunity.quoting Hill v.
Blind Industries and Services of Maryland.
179 F. 3d 754 9th Cir. Court. 1999).
Blessett proved a prima facie case, "the
defendant bears only the burden of explaining clear
reasons for its actions." Texas Dept, of
Community Affairs v. Burdine, 450 US 248 Supreme Court 1981. The District Court erred in
its decision to dismiss, the judicial determination
made by the U.S 5th appellate Court, the Clearfield
Trust Doctrine, and a request for injunctive relief.
Case law has already established every state official
that are administrating a federally funded
program, are acting under the color of law. See
Williams v. US, 396 F. 3d 412 - Court of
Appeals, Dist. of Columbia Circuit 2005, See
12

Tongol v Usery, 601F.2d 1091, 1097 (9th
Circuit, 1979) Specifically, the under-color-ofstate-law doctrine may also apply to individuals
who act "with knowledge of and pursuant to a stateenforced custom requiring" unconstitutional
behavior. See Adickes v. S.H. Kress & Co.. 398
U.S. 144. 174 n. 44. 90 S.Ct. 1598. 1617 n. 44. 26
L.Ed.2d 142 (1970). Blessett had no reason to
believe the District Court would allow 11th
amendment protections
after the judicial
determination. The Title IV-D agency use of 11th
amendment protection is used to suppress the
material evidence provided by Blessett and as a
blanket excuse to cover the fact that Title IV-D will
not be able to overcome the U.S. Constitution
challenges. They were thereby preventing the
inevitable exposure of the noncompliance with the
Title IV-D program and the liabilities from their
actions.

B. Under Cooperative Federalism, all Title IV-D
agencies generate income from federal government
contract reimbursement for services rendered and
financial incentives for performance under
42U.S.C. 658a. The agencies operate under contract
in the enforcement and collection of private debts.
For this reason, Blessett has raised the issue of
the Clearfield Trust Doctrine against the Title IVD agency in the Original Complaint and again in
the Amended Complaint. Blessett has charged the
Title IV-D program is a U. S. government franchise
13

business for profit under federal contracts with
streams of income; therefore, the Clearfield Trust
Doctrine nullifies their 11th amendment immunity
defense under private contractual requirements for
10th amendment protections. The state Title IV-D
agencies are operating under a "Federal-State
Compact" "Cooperative Federalism" conveniently
packaged by Congress as the PRWORA and the
UIFSA following principles of general contract law.
The terms under of 42 US.C. 654 (12) are
obligations to Blessett and 42 U.S.C 654 (32) of the
Title IV-D provisions to provide at the request for
services by a "foreign reciprocating country, a
foreign treaty country, or a foreign country" with
which the State has an arrangement described in
42 U.S.C. 659a(d) for "International support
enforcement" offers evidence of federal commercial
paper control. States do not have power over foreign
treatise or the authority to make arrangements for
"International support enforcement" without
submitting to federal government regulation of
commercial paper. As a requirement for state
eligibility into Title IV-A and IV-D of the Social
Security Act, the states must follow the federal
statute 42 U.S.C. 654 and all its provisions to
exceed the restriction of sister-state 10th
amendment protection for sovereign neutrality.
The state Title IV-D programs are not immune from
suit for 42 U.S.C.654 noncompliance acts that
create a contractually binding obligation to private
individuals due process protections.
The U.S. Congress intended for the federal
Article III courts to follow the federal statutes of
Title IV-D of the Social Security Act, The
"Spending Clause of the Title IVprograms to protect
14

the U.S. Government interest. The "Commerce
Clause" and "Contract Clause" are UNITED
STATES CONSTITUTION protections to prevent
injuries to the private individuals from the liable
business in failing to meet the contractual terms of
42 U.S.C. 654 in the transfer of Blessett's
"interstate" commercial paper to the Title IV-D
agency. The fraudulent collection and enforcement
by the Title IV-D agency are crimes against
Blessett, under the color of law. Blessett's injuries
are entitled to a remedy Quoting Marburv v.
Madison.
Blessett has not waived his rights to Title IV-D
agency federal or State authority and charges the
Title IV-D agency for enforcing an invalid
commercial paper collection service contract
against him. Citing - Lochner v. New York, 198
U.S. 45, 25 S.Ct. 539, 49 L.Ed. 937 (1905),
Blessett has enforceable rights under the "Contract
Clause Article I, section 10, clause 1," "Commerce
Clause," 5th and 14th amendment. There is no
question that the Supreme Court has "held for
many years (logically or not) that the 'liberties'
protected by Substantive Due Process do not include
liberties."
Stop
the
Beach
economic
Renourishment. Inc, v. Florida Dev't ofEnvtl.
Prot.. 560 U.S. 702. 721. 130 S.Ct. 2592. 177
L.Ed.2d 184 (2010) (citing Lincoln Fed. Labor
Union v. Northwestern Iron & Metal Co.. 335
U.S. 525. 536. 69 S.Ct. 251. 93 L.Ed. 212 (1949)):
cf. Hettinsa v. United States. 677F.3d 471. 48183 (D.C.Cir.2012)

15

Blessett demanded to see the legal instrument
of authority that gave Title IV-D Agency the legal
capacity to enforce Title IV-D program penalties
against him. For regular, everyday people, it would
be a common understanding that Blessett's Final
Divorce Decree is the legitimate contract, and the
Title IV-D agency would have to produce a contract
to refute Blessett's claims.
Blessett raised the Clearfield Trust Law
Doctrine in both the Original Complaint and the
Amended Complaint. The Title IV-D agency was
allowed to apply an affirmative defense at the
required time using full "Procedural Law Process,"
before a judicial determination in a U.S. 5th
Appellate Court, and it is a "fact of law." The 11th
amendment immunity issue is forfeit, and
foreclosed by Respondent's conduct, their
noncompliance to the obligation of a federal
contract, private law doctrine, federal rules of
civil procedures and Blessett's protected
rights
against
illegal
government
infringement.
Blessett presented material
evidence such as an FRCP 9(d) with verifiable legal
documents, a private contract, exempt homestead
documentation, documentation of a private
attorney massaging the truth, and evidence of a
state judge/Title IV-D administrator ignoring facts
and law. All to support his injuries.
The Title IV-D agency generates income
servicing interstate contracts under a federal
contract as a business. Title IV-D is a nationwide
United States Government program that has
substantial federal involvement in the services it
16

provides. Congress federal control maintains
uniform commercial paper in state payment
distribution center with sister states, Title IV-A
loans, foreign collections, and Electronic Funds
Transfer security. The Title IV-D program creates
a contractual right under 42 U.S.C. 654(12) to
receive documents or valid legal instruments for
services. Blessett provides the District Court with
a federal statute 42 U.S.C. 603 (5)(c)(iii)(III) that
required the Title IV-D agency to properly enroll
Blessett into the program to produce the
documentation necessary for 42 U.S.C. 654(12). The
District Court has ignored certain facts in the
Amended Complaint. These facts are reached by
logical reasoning and the collection of evidentiary
facts, as a legal conclusion is achieved through the
application of fixed laws. Just as "U.S. Separations
of Powers and Supremacy Clause" prevents state
actors cloaked in state sovereign authority from
operating as federal contracted agents to conduct
the federal program Title IV-D services at the same
time.
Without presenting material evidence of a legal
document of authority against the Final Divorce
Decree, required under 42 U.S.C. 654(12), the Title
IV-D agency is not in compliance with the terms of
the federal contract. Under 42 U.S.C. 654 (12) the
program created a federal contractual entitlement
for Blessett to receive a copy of a modification to the
existing state court support order. The federal
statute, 42 U.S.C. 654(12) assures the "Procedural
Law Process to protect Blessett's 5th and 14th
amendment rights. The Supreme Court has set
forth three factors to assess whether a statute
provides enforceable rights that may be pursued
17

through §1983:(1) U.S. Congress intended the
plaintiff as the beneficiary of the statute,(2) the
statute imposes a binding obligation on the State,
and (3) is the asserted a right not so "vague and
amorphous" its enforcement would strain judicial
competence. Quoting Blessing v Freestone 520
US 329 - Supreme Court 1997
The Respondent failed to fulfill their duties, and
their actions did not meet the minimum
requirements of the obligation under Title IV-D of
the Social Security Act provisions promulgated
through 42 U.S.C.654. Their failure to perform
their duties led to Blessett's injuries that led to
damages financial or otherwise. Their actions that
caused injuries were factors that the Title IV-D
agency had control of the outcome of the
circumstances. The Title IV-D agency lacked
judicial capacity and the requirements to deny
Blessett's rights using Title IV-D administrative
penalties. The Respondent breached their duties to
federal contract, their dishonest litigation conduct,
and their avoidance of "Procedural Law Process" is
evidence of established customary local practices
that are not based in law nor contractual. The 42
U.S.C. 654(3) contracted agency agreed to the terms
of the contract and the liabilities for failure to meet
those federal provisions of the contract for private §
1983 enforcement remedy Id. Rosado v. Wyman.
The Texas 42 U.S.C. 654(3) contracted agency is the
United
States
contracted
collection
and
enforcement business securing a position under the
Clearfield Trust Law Doctrine with private law
liabilities.

18

The District Court made an error of law in not
Circuit Court judicial
accepting U.S. 5th
determination in this civil action as the Title IV-D
agency submission to federal jurisdiction by its
conduct as a fact of law. The Clearfield Trust as
U.S. Supreme Court Law Doctrine creates a
challenge, requiring the Title IV-D agency to
establish itself as a nonprofit arm of the State and
not a separate contracted entity in the State. As a
separate contracted entity, it would satisfy the
"Separation of Power" clause operating under
federal statutes required by the Supremacy Clause.
Blessett has presented federal statutes under the
United States government contract with the Title
IV-D agency, proving their income generation
abilities and practice. The state Title IV-D agencies
receive federal income for administrative services
and local law enforcement assistance for Title IV-D
of the Social Security Act interstate collections,
distribution, and enforcement under PRWORA and
the UIFSA following principles of the general
contract payment of services rendered to the United
States. Payment for services is income generation
under business contract terms.
Title IV-D agency receives substantial federal
control, and income-generating capabilities under
PRWORA and the UIFSA. Under Title IV-D agency
enforcement, Blessett has had his financial
accounts frozen, and U.S. commercial paper
seized outside of Texas sovereignty, which falls
under U.S. Congress nationwide power to
regulate interstate commerce to enforce
uniform interstate contracts. It is a Supremacy
Clause issue over Texas sovereign rights and the
United States' sovereign right to control uniform
19

commerce in interstate contract enforcement. The
solution was given in this case under 28 U.S.C.
1738B and the terms of the contract under 42
U.S.C. 654 safeguards for the 10th amendment
rights and the rights of private individuals.
C. It was a fatal error of law in forfeiting
Blessett's good-faith gesture with a legal
instrument to expedite the issues and bring the
matter to a close while preserving the State's 11th
amendment immunity privilege without monetary
relief from the State.
Blessett's request for injunctive relief would
have brought an end to the legal issues. The claim
for Injunctive Relief under Rule 65 requesting
Declaratory Judgment without monetary demands
is the application of Ex parte Young. The District
Court erroneously applied immunity from suit for
state issues in federal Court against established
law doctrine as a reason to dismiss the issues. "It is
clear that in a § 1983 action brought against state
officials, the statutory requirement of action "under
color of state law" and the "state action" requirement
of the Fourteenth Amendment are identical,"
quoting United States v. Classic. 313 U. S. 299.
326 (1941) The Eleventh Amendment does not apply
to claims for prospective injunctive relief. Quoting
Edelman v. Jordan. 415 U.S. 651. 664-67 (1974)
Blessett's request for injunctive relief is the
application of Ex parte Young.
The District Court took an erroneous view of the
material evidence presented with the March 6,
20

2019, judicial determination. The conduct of the
Title IV-D agency's failure to raise an affirmative
defense at the required time and the unopposed
challenge to the "Clearfield Trust Doctrine." is
consent to the federal jurisdiction. United States
v. Fernandez. 797 F.3d315. 318 (5th Cir. 2015).
"A district court abuses its discretion if it bases its
decision on an erroneous view of the law or an
erroneous assessment of the evidence." and "by not
meaningfully addressing the positive equities . . .
and by improperly characterizing the negative
equities." See Rodrisuez-Gutierrez v. INS. 59
F.3d 504. 509 (5th Cir. 1995).
State actors are restricted to state laws and the
authority covered under the state sovereignty. The
"Separation of Power" and the "Supremacy Clause"
places federal programs administered by state
actors outside of their state official capacity. The
state actors are acting under the color of law unless
they can provide legal documentation that Blessett
agreed to this arrangement. The Texas Attorney
General cannot be an officer for the State of Texas,
and a federal employee servicing a federal contract.
Richardson v. Dep't of Interior, 740 F.Supp.
15, 19-20 (D.D.C.1990) (holding that the plaintiff
could not bring a section 1983 claim against a
federal official who arrested the plaintiff under the
federal Assimilative Crimes Act, which provides
that D.C. law can be applied on federal property as
though it is federal law); Townsend v. Carmel.
494 F.Supp. 30. 32 (D.D.C.1979) (same). Applying
a similar analysis, the Second Circuit permitted a
section 1983 suit to go forward against federal
21

officials who allegedly conspired with state officials
to violate the plaintiff's federal rights. Kletschka v.
Driver. 411 F.2d 436. 448-49 (2d Cir.1969): cf.
Johnson v. Orr. 780 F.2d 386. 390-93 (3d
Cir.1986) (holding that the plaintiff could sue
certain Air National Guard officials under section
1983 since New Jersey's significant control over
these officials meant they were state actors); Tonsol
v. Userv. 601 F.2d 1091. 1097 (9th Cir.1979)
(concluding that a section 1983 action was
appropriate against state officials administering a
federally funded program since these officials were
"empowered to act only by virtue of their authority
under state law").
Blessett brought a section 1983 and 1986 action
against state actors and the 45 CFR 302.34
contractors who injured him with federal and state
law violations since the state "cloaked the
defendants in some degree of authority," and the
defendants "conspired or acted in concert to deprive
Blessett of his civil rights." Blessett had the 11th
amendment right to enjoy a private contract
without government infringement. Blessett has 5th
amendment rights to his property and privileges
seized through Title IV-D federal program
enforcement without a valid legal instrument of
authority. Blessett has 14th amendment rights to
"Procedural Law Process" before state actors can
infringe and seize property and privileges.
Therefore, Blessett has the enumerated right of the
9th Amendment to enjoy his Final Divorce Decree.
Because of the large number of possible unknown
individuals involved, Blessett must rely on this
Court's decision in Owen v. Independence, 445
US 622 - Supreme Court 1980 for municipalities.
22

D. By placing an impermissible financial burden
on Blessett Driver's license without due process the
Texas Department of Public Safety and the OAG
violated the Driver's Privacy Protection Act of 1994
DPPA: federal statute 18 U.S. Code § 2721 (a)(2)
and 18 U.S. Code § 2721(b) (11).
The Title IV-D agency did not provide the
District Court with a legal instrument showing
Blessett's consent to the Title IV-D program. It
follows, they would not be able to provide it to the
Texas Department of Public Safety. Reno v.
Condon. 528 US 141(2000) The activity license by
the state Department of Motor Vehicle and in
connection with which individuals must submit
personal information to the DMV for the operation
of motor vehicles is itself integrally related to
interstate commerce. As a requirement under 42
U.S.C. 654(12), the Title IV-D agency is required to
have a legal document proving Blessett's consent to
the Title IV-D program. Blessett presents to this
Court, a DPPA impermissible financial burden on
his Driver's license without the due process taking
place under the Title IV-D program. It was an
unlawful suspension of Blessett's driver license
without the required due process and evidence of
"express consent" to Title IV-D enforcement under
42 U.S.C 654 (12). U.S. Congress did not grant its
42 U.S.C 654 (3) contractors the right to suspend
state driver licenses without Procedural Law
Process.
No amount of "inflated language that is designed
to make the simple seem complex" will change the
basic facts of law and material evidence presented
23

in this civil action to make the prima facia case.
Kent v. Dulles 357 U.S. 116 (1958) was the first
case in which the U.S. Supreme Court ruled that the
right to travel is a part of the "liberty” of which the
citizen cannot be deprived without due process of
law under the Fifth Amendment. 18 U.S.C. 2723 (b)
states there is a $5,000 penalty charge for each day
of substantial noncompliance. At $5,000 for each
day of substantial noncompliance since September
22, 2014, towards Blessett, "the fines are over
$8,900,000.00 and growing in civil penalties
that can be imposed by the U.S. Attorney
General" as the penalty and enforcement against
the Texas Department of Safety and the Title IV-D
agency, in this scenario. Invalid Executive branch
Title IV-D administrative order will never grow up
to be valid Judicial Branch court orders without
committing fraud or a correctable mistake of law by
applying mandatory public law. Under the DPPA
section five 14th amendment protection, the
Respondent cannot escape liabilities of their color
of law actions.

E. Individual citizens are not required to act in
the public interest. Private law gives them the legal
tools to act in their own interest.
In Public Law "The Constitution and the Laws
of the United States are made in Pursuance of all
Treaties made, under the Authority of the United
States, the supreme Law of the Land; and the
Judges in every State are bound by, any Thing in
24

the Constitution or Laws of any State to the
Contrary notwithstanding." Article VI In Private
Law, the Constitution takes a back to legal private
contract terms, and you have to have an agreement
between all parties concerned to enforce a contract
to avoid "Public Law" problems
Since the beginning, the Title IV-D agency has
been unable to present another instrument of
authority, and there has been no rebutting
evidence; therefore, Blessett's charges remain the
truth
The material evidence and facts presented shifts
the burden of proof to the Title IV-D agency to
refute the charges made by Blessett in his Amended
Complaint. The District Court has placed a higher
standard of proof of evidence on Blessett, requiring
a higher probability that particular facts are true.
This standard sets a higher threshold than the
preponderance of the evidence standard for civil
actions.
The U.S. Supreme court has stated for the record
Title IV-D is not an entitlement, it is the standard
service a simple yardstick for the Secretary must
look to the aggregated services provided by the State,
not to whether the needs of any particular person
have been satisfied. Blessing V Freestone. 520
U.S. 329 (1997)
The federal statute, 42 U.S.C. 603 (5)(c)(iii)(III)
clearly states, "In the case of a noncustodial parent
25

who becomes enrolled in the project" while 42
U.S.C. 601(b) clearly states, "This part shall not be
interpreted to entitle any individual or family to
assistance under any State program funded under
this part "and 42 U.S.C. 654(12) clearly states
"require the State to provide individuals who are
applying for or receiving services under the State
plan, or who are parties to cases in which services
are being provided under the State plan with a copy
of any order establishing or modifying a child
support obligation."

F. Title IV-D Incentives for collection
performance are inducements and cash bounties on
noncustodial parents under administrative law.
When dealing with Title IV-D, as a nationwide
program, and the federal courts must reconsider
their commitment to uniformity as the federal
courts attended to separation-of-powers and
institutional-competence of the program. Was it
Congress's intention to induce the States to violate
any independent constitutional prohibitions?
Blessett charges Title IV-D's Incentive performance
requirements are deceptive, aggressive, coercive,
and predatory, which induce violations of the U.S.
Constitution through Title IV-D's funding
conditions under the Spending Clause. Title IV-D's
incentive for performance conditions on federal
grants
is
illegitimate,
unrelated,
and
counterproductive to the federal interest. It is one
way to subsidize the State's employee payroll, at
26

the expense of American families and federal
taxpayers, to increase the State's income, just as
any business. Title IV-D programs are federal
agencies operated by state officials; therefore, it is
a clear violation of "Separation of Powers."
Title IV contracts clearly and unambiguously
impose penalties for under-performance as funding
conditions. These requirements are related to the
goals for efficient child-support enforcement growth
and not promoting independence from welfare.
Congress created conditions that induce States to
violate the constitutional rights against child
support debtors and for the States to find ways to
increase their revenue, one of which is by deceptive
aggressive enrollment, for more child support
debtors. Regular practice is the aggressive
enrollment into the Title IV-D program at the time
of the birth of a child, which is deceptive when the
parents are not fully informed about the full terms
and implications for signing an acknowledgment of
paternity, which automatically becomes an
enrollment into this Title IV-D program, as soon as
the custodial parent assigns his/her right to the
Title IV-D agency.
when
Furthermore,
it
is
deceptive
administrative hearings have the appearance of a
judicial setting when these issues are being
portrayed to have legal force. Worst of all, it is the
enforcement of executive orders without legal
standing as ongoing proactive material fraud. U.S.
Congress Title IV's incentive conditions on funding
are impermissibly coercive, an effect of the Title IV
conditions "solely from the standpoint of the
27

incentive payments for performance." "Incident to
this power, Congress may attach conditions on the
receipt of federal funds and has repeatedly employed
the power 'to further broad policy objectives by
conditioning receipt of federal moneys upon
compliance by the recipient with federal statutory
and administrative directives.South Dakota v.
Dole. 483 U.S. 203. 206 (1987) (quoting
Fullilove v. Klutznick. 448 U.S. 448. 474 (1980)
(opinion of Burger. C.J.)): see New York v.
United States. 505 U.S. 144. 167 (1992).
Congress may not induce the States to violate
constitutional rights as a condition of its spending
clause. An incentive payment system for
administrative law performance is a "bounty" on a
"specific class of debtors" enacted by Congress. The
harsh penalties are without comparison to any
other debtors in these United States. The 14th
amendment is public law restriction against public
official discriminatory behavior toward a specific
class of debtors created by Congress. Congress
created specific penalties for a particular class with
inducements to encourage administrative law
Constitutional
U.S.
enforcement
without
protections under Title IV-D contracts.
In 1998, Congress enacted the Child Support
Performance and Incentive Act, Pub. L. No.
105-200, 112 Stat. 645. It is responsible for
inducing
discriminatory
behavior
toward
individuals with child support debt as if it were
some special kind of debt that deserves unequal
treatment. Incentives under 42. U.S.C. 658a, by
definition, is designed as an inducement to increase
state collection and enrollment performance levels.
Under 45 CFR § 305.40 penalty performance levels
28

and 45 CFR § 305.61 penalties for failure to meet
Title IV requirements are designed by nature to
coerce or increase predatory enrollment and
creative collection. This civil action shows the Court
happen
through
performance
can
what
a policy of negligence
or
inducements,
incompetence, or corruption. Still, the fact shows
noncompliance with the safeguards of the federal
contract.
With the contractual safeguard impossible to
overlook, it is indeed an enforcement and collection
contract with harsh penalties against a child
support debtor without a written contract, with
predatory marketing for enrollment through
deception and concealment of the loss of the federal
protections. The U.S. Supreme Court "have
suggested (without significant elaboration) that
conditions on federal grants might be illegitimate if
they are unrelated 'to the federal interest in
particular national projects or programs.South
Dakota v. Dole. 483 U.S. 203. 206 (1987) The
State is not selling a service or product that benefits
the individual child support debtor. Administrative
law enforcement incentives promote corruption as
it induces the States to cut corners to increase
revenue. Blessett provided actual examples of the
corruption in this civil action, showing a private
attorney that perjured himself without fear of
consequence. This constable is so complacent in his
actions that it created the plausibility of fraud and
the Title IV-D judge or an administrator.
G. Blessett challenges the constitutionality of 42
U.S.C § 658a of the Title IV-D of the Social Security
29

Act as an administrative law bounty on child
support debtors. The program incentivizes
discrimination against child support debtors as an
implicit bias against Deadbeat parents. Equality is
offered on the surface and denied by implicit bias of
the deadbeat moniker established in H.R. Deadbeat
Parents Punishment Act of 1998 signed by Bill
Clinton. Along with the Incentive rewards for
performance, 42 U.S.C § 658a to the state agencies
under administrative law on any account or
definition is an inducement to create an illegal
bounty to increase the number of noncustodial
parents under the program by creative means. The
Title IV-D program is not an entitlement program
and requires consent and notice under required
federal provisions 42 U.S.C. 654(12) to be given to
the noncustodial parent as tangible evidence of a
modification of a state court order or proof of their
consent to the services. Statute of Frauds requires
a written contract for services that will last more
than a year with consideration, benefits, and
meeting of the minds. The U.S. Constitution
requires public law restrictions to Title IV-D
program consent to protect private law rights
against government infringement.
The District Court's failure to secure federal
provisions of the Title IV-D program and by not
upholding the responsibilities given by the U.S.
Congress regarding the Title IV-D leads to:
1.

Fraud against the U.S. government.

30

That allows the 45 CFR 302.34 contractors
aggressive behavior towards:
Increased performance
a.
federal grant dollars,

quotas

for

Promotes municipalities to increase
b.
Title IV-D customers and administrative
services to those customers to subsidize their
employee payroll.
2.

Fraud against noncustodial.

The current environment is as follows:
a. Forced Title IV-D unilateral contract
without due process, without knowledge of
penalties, without proof of consent, without
benefits or considerations for the noncustodial.
b. there is no tangible contract given.
c. there is no repayment scheme for paternity
fraud payments.
d. there is no repayment scheme for
overpayments made to the custodial parent.

31

e. there is no easy scheme for arbitration for
reporting 45 CFR 304.34 contractors' violations
or misconduct.
f. silence or non-activity defaults as consent
or enrollment, which is an abuse of due process.
If a state Title IV-D agency cannot present
material evidence of the noncustodial parents'
compliance, the state plan violates a required
federal provision 42 U.S.C. 654 eligibility.
The Courts ignore the "Statute of Frauds"
protections, for a Title IV-D contracts without
benefits, without a meeting of minds, and without
consideration is a fraudulent contract of service to
debt. The Courts permit a cascade of problems in its
abuse of judicial discretion concerning 42 U.S.C.
654, and the supporting federal provisions.
In contract law involving equitable instruments
as for child support, it is the Noncustodial parent
who is the primary lender on the funds paid to the
custodial parent. It is the primary lender that sets
the terms of the financial contract to protect his or
her financial interest in private law. It is
government overreach that infringes on private law
rights and deprivation public law right. U.S.
Congress or state government may not create any
infringements into intimate legal private matters.
The rights granted free individuals not under
contracts are clear in the U.S. Constitution.
Without consent to Title IV-D contract
32

noncustodial parents a free from contractual
obligations to the program.
Courts have allowed public law abuses and
overreach into the private domain when the Court
fails to secure the protection in Title IV-D of the
Social Security Act contract. There are no Federal
Statutes or Code of Federal Regulations in the Title
IV-D of the Social Security Act provisions in the for
the return of payment to the noncustodial parent
made for paternity fraud or support overpayments
to the custodial parent.
District Courts do not report the fraud against
the U.S. Government. It is serious when there are
no easily accessible provisions or schemes for
reimbursement to the taxpayer for the overcharges,
or a system for reporting fraud. The reporting of
misdirected payments submitted for paternity
fraud, and mistaken collections and enforcement
from non-Title IV-D participants, paid for
reimbursements to 45 CFR 302.34 administrative
service and fraud in the 42 U.S.C. 658a incentive
payments for performance slip through the cracks.
The District Court's actions promote legal
misconduct of 45 CFR 302.34 contractors by not
securing the federal provisions of Title IV-D.
Without a directly accessible independent party in
place for oversight to protect the federal funds, the
Courts are sanctioning the theft of Taxpayer dollars
through silence and providing an excuse for abuse
and promoting fraud through failed enforcement of
the federal provisions. The state Title IV-D
programs
need
closer
U.S.
Government
Accountability Office (GAO) inspection and Office
33

of Inspector General (OIG) for State False Claims
Act Reviews. Based on the failed acknowledgment
of the problems presented to the Courts, it is
unacceptable.
Current Title IV-D federal provisions available
that have led to abuses by 45 CFR 302.34
contractors to avoid penalties of 45 CFR § 305.61
for failure meet performance quotas to maintain or
increase Government Grants of 45 CFR § 302.55 or
Government
reimbursement
U.S.
expand
administrative services of 45 CFR § 303.107
without fear of civil or criminal retribution. This
civil action presents the elements to support the
federal courts as a plausible cause of the problem
as a motivator for corruption, along with mistakes
at the state local government level, improper
training of 45 CFR 302.34 contractors.
The Title IV-D program lacks adequate federal
provisions for the liabilities named and improper
training for the specific responsibilities designated
under state plans. The state courts and agencies
have failed the noncustodial parents and protection
of U.S. Government interest. The District Courts
are following the same path without the guidelines
established. Public opinion is not the rule of law, or
just trying to get out of paying child support as a
legal defense. The District Courts' inconclusive
presumption and conclusory legal arguments
prevent the noncustodial parent's equal protection
of the law at the same time tolerating corruption
and bad behavior.

34

District Court ignored the significance of the
failure to protect the U.S government interest the
promotes fraud by ignoring the 42 USC 654 federal
provisions of Title IV-D state plans.
For the sake of 10th and 11th amendment
protections for the State and individual citizens,
the Supreme Court has recognized four general
limitations: spending must be in pursuit of the
general welfare; any attached conditions must be
unambiguous; conditions must also be related to a
federal interest; and, the obligations imposed by
Congress may not violate any independent
constitutional provisions. See Dole. 483 U.S. at
207-08. The Supreme Court has recognized that
Congress intended these linkages between Title IVD child support programs and the TANF program.
See Sullivan v. Stroon. 496 U.S. 478. 484 (1990)
(concluding Congress intended the two programs to
"operate together closely to provide uniform levels of
support for children of equal need") Federal statute
42 U.S.C § 658a blurs the line as a bounty on
noncustodial to increase the contractor's income
and efforts to reduce welfare dependency in Title
IV-A.
The U.S Supreme Court affirms the assumption,
founded on " 'a robust common sense,that the
States voluntarily exercise their power of choice
when they accept the conditions attached to their
Ibid, (quoting
acceptance of federal funds.
Steward Machine Co.. 301 U.S. at 590).

35

The District Courts do not harm 10th
amendment protections for Title IV-D State
agencies by reporting and favoring the opposing
litigant for violations of 42 U.S.C 654(12) and
42
U.S.C.
supporting
federal
provisions
§ 666(a)(12), (13)(A), and (16), for 14th amendment
section 5 Driver's Privacy Protection Act of 1994
(DPPA) in this civil action.
The District Courts do not harm 10th
amendment protections for Texas 45 CFR 302.34
contractors by reporting to HHS and favoring
Blessett for the DPPA violations. Just as OAG
illegal act in the suspension of state driver licenses,
and Texas law to "withhold state automobile
registration renewal" Texas Family Code 232.0022
as Supreme Court Law doctrine workaround
without due process. Creative ways to increase
income from federal contracts. The District Courts
do not harm 10th amendment protections for
clerical
Subdivision"
legal,
"Political
administrators in favoring the opposing litigant for
violations in the use of DPPA information for
location services, to suspend state driver licenses,
and withhold state automobile registration.
As 42 U.S.C. § 2000d-7(a)(l) (emphasis added).
The Supreme Court held that § 2000d-7(a)(1)
accomplished a valid and unambiguous waiver of
the states' Eleventh Amendment immunity. See
Lane v. Pena. 518 U.S. 187. 198-200. 116 S.Ct.
2092. 135 L.Ed.2d 486 (1996): Koslow. 302 F.3d
at 172 (Pennsylvania's receipt of federal funds
under the State Criminal Alien Assistance Program
effected a waiver of its Eleventh Amendment
36

immunity for claims under § 504 of the
Rehabilitation Act).
The
DPPA
violation
establishes an effective wavier of the Texas
Department of Public Safety and the Title IV-D
agency 11th amendment immunity by an act of
Congress.
U.S. Supreme Court has recognized that
Congress intended these linkages between Title IVD child support programs and the TANFprogram.
See Sullivan v. Stroop. 496 U.S. 478. 484 (1990)
(concluding Congress intended the two programs to
"operate together closely to provide uniform levels of
support for children of equal need") U.S. Congress
itself required that States must follow 42 U.S.C.
654.
Ambiguities in the proper "scope and
interpretation" of an express condition on funding
that is later clarified through regulation that raises
an issue under the Spending Clause.
G. Blessett has the 5th, 10th, 14th, and 9th
amendment right to enjoy his "Final Divorce
Decree" and "Immunities Clause" protections "that
are fundamental individual rights" that may not be
infringed upon by government entities or private
corporations. The U.S. Supreme Court decisively
held that incorporated Due Process Clause and
Equal Protection Clause protections are all to be
enforced against the States under the Fifth and
Fourteenth Amendment according to the same
standards that protect those individuals' rights
against federal encroachment." Blessett's right to
enjoy his Final Divorce Decree from unlawful
government infringement is a" liberty under the
Due Process Clause that is defined in a most
37

circumscribed manner, with central reference to
specific historical practices" of contract law and
commerce. Quoting Washington v. Glucksbers.
521 U. S. 702. 721 (1997)
The Title IV-D agency is not in compliance with
the promulgated statutes under 42 U.S.C. 654,
Texas Family Code Sect.231 and U.S. Constitution.
"A district court, by definition, abuses its discretion
when it makes an error of law." Koon v. United
States. 518 U.S. 81. 100 (1996).
Blessett does not disturb Texas' 11th Amendment
Immunity privilege by charging the Title IV-D for
noncompliance with 42 U.S.C. 654 contractually
binding language of the contract requirements and
terms to protect the states' 10th amendment right.
You cannot violate the entity's protection for
holding the guilty parties accountable to the
contractual terms
.Blessett's Decreed Divorce Contract is the legal
instrument of authority with the terms and agreed
upon conditions with a contract clause stating, "It
is ordered and Decreed that all relief requested in
this case and not expressly granted is denied. "28
U.S.C. 1738B, Contract Clause ArticleI. section 10.
clause 1. Commerce Clause. 5th and 14th amendment
protections
Blessett has the enumerated rights under the 9th
amendment to enjoy his Final Divorce Decree
without government infringement. "Where legal
38

/

rights have been invaded, and a federal statute
provides for a general right to sue for such invasion,
federal courts may use any available remedy to
makegood the wrong done. "Bell v. Hood. 327 U.S.
Bivens v. Six Unknown Named Asents of
Federal Bureau of Narcotics 403 U.S. 388
(1971) commonly known as a ”Bivens remedy
CONCLUSION
Blessett respectfully asks this judicial body to
address U.S. Constitution conflicts, legal oversight,
and neglected injuries against the Petitioner within
the text of this petition.
Respectfully submitted,

o

oe Blessett / Pro Se
3118 FM 528 #346
Webster, Texas 77598
(281) 667-1174

39

